U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: John G. Tomes v. United States, No. 21-5104
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 7, 2021.
The government’s response is now due, after one extension, on October 27, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
November 26, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

21-5104
TOMES, JOHN G.
USA

MATTHEW MCGAVOCK ROBINSON
ROBINSON & BRANDT, PSC
629 MAIN STREET
SUITE B
COVINGTON, KY 41011
859-581-7777
ASSISTANT@ROBINSONBRANDT.COM

